APPENDIX ITEMS
REQUIRED BY SUPREME
COURT RULE 1 4 ( 1 ( I ) ( V )
T A B L E OF CONTEN TS

Constitutional Provisions ............................................... 1
1.

U.S. Const. Art. II, Art. 1:..................................... 1

Statutes............................................................................ 1
2.

28 U.S.C. § 1254: ................................................... 1

3.

3 U.S.C. § 5: ........................................................... 1

4.

42 U.S.C. § 1983 .................................................... 2

5.

42 U.S.C. § 1988(a)................................................ 3

6.

O.C.G.A. § 1-3-1(d)(3) ............................................ 3

7.

O.C.G.A. § 21-2-10 Election of Presidential
Electors .................................................................. 4

8.

O.C.G.A. § 21-2-11 Meeting of Presidential
Electors, Duties ..................................................... 4

9.

§ 21-2-12. Filling of vacancies existing in
presidential electors .............................................. 4

10. § 21-2-13. Compensation of presidential electors;
expenses of electoral college ................................. 5
11. § 21-2-132(a). Filing notice of candidacy,
generally; qualifying fees; affidavits .................... 5
12. § 21-2-132.1. Presidential electors for
independent ........................................................... 6
13. § 21-2-216. Elector’s qualifications; applicants
acquiring age qualifications within six months
i

permitted to register; electors not required to
reregister; electors moving to another state ........ 6
14. § 21-2-285(e). Form of official election ballot ....... 7
15. § 21-2-322(2). General requirements as to voting
machines ................................................................ 8
16. § 21-2-365(2). General requirements as to optical
scanning voting systems ....................................... 8
17. § 21-2-379.5(e). Information to appear on ballots 8
18. § 21-2-381. Application for ballot ......................... 9
19. O.C.G.A. § 21-2-386. Safekeeping, certification,
and validation of absentee ballots; rejection of
ballot; delivery of ballots to manager; duties of
managers; precinct returns; notification of
challenged elector.................................................. 9
20. § 21-2-435(c)4). Method of marking ballots and
depositing same in precincts in which ballots are
used ...................................................................... 20
21. § 21-2-438(b). What ballots shall be counted;
manner of counting; defective ballots ................ 20
22. O.C.G.A. § 21-2-452(e). Admission of electors to
enclosed space; voting procedure generally;
procedure as to write-in votes; voting by electors
whoseright to vote is challenged; disabled voters
.............................................................................. 21
23. § 21-2-455(b). Canvass and return of votes ....... 22
24. § 21-2-480(g). Form and arrangement of ballots 23
25. § 21-2-483(b). Counting of ballots; public
accessibility to tabulating center and precincts;
execution of ballot recap forms; preparation of
duplicate ballots .................................................. 24
26. § 21-2-498. Constitutional Officers Election
Board ................................................................... 24
ii

27. O.C.G.A. § 21-2-499(b) Duty of Secretary of State
as to tabulation, computation, and canvassing of
votes for state and federal officers; certification of
presidential electors by Governor ...................... 26
28. § 21-2-501(f). Vote requirements for nomination
or election; run-off elections ............................... 27
29. § 21-2-502(e). Certificates of election;
commissions; proclamations ............................... 27
30. O.C.G.A. § 21-2-524(a). Filing and allegations of
petition to contest primary or election; service of
petition; verification; notice of proceedings to
answer petition; service of special process;
amendment .......................................................... 27
31. O.C.G.A. § 21-2-527(d Pronouncement of
judgment; effect of finding of misconduct by poll
officers; calling of second primary, election, or
runoff by court upon finding of defects .............. 29
32. O.C.G.A. § 21-2-2(25)(B). Definitions ................. 29
33. O.C.G.A. § 21-2-521. Primaries and elections
which are subject to contest; persons who may
bring contest ........................................................ 30
34. § 21-2-522. Grounds for contest.......................... 30
35. Ga. Sec. State Rule 183-1-14-0.9*.15 ................. 31

iii

CONSTITUTIONAL PROVISIONS
1.

U . S . C O N S T . A R T . II, A R T . 1 :
The Times, Places and Manner of holding
Elections for Senators and Representatives, shall
be prescribed in each State by the Legislature
thereof; but the Congress may at any time by
Law make or alter such Regulations, except as to
the Places of chusing Senators.

STATUTES
2.

2 8 U . S .C. § 1 2 5 4 :
Cases in the courts of appeals may be reviewed
by the Supreme Court by the following methods:
(1)
By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or
after rendition of judgment or decree;
(2)
By certification at any time by a court of appeals
of any question of law in any civil or criminal
case as to which instructions are desired, and
upon such certification the Supreme Court may
give binding instructions or require the entire
record to be sent up for decision of the entire
matter in controversy.

3.

3 U . S .C . § 5 :
If any State shall have provided, by laws enacted
prior to the day fixed for the appointment of the
1

electors, for its final determination of any
controversy or contest concerning the
appointment of all or any of the electors of such
State, by judicial or other methods or procedures,
and such determination shall have been made at
least six days before the time fixed for the
meeting of the electors, such determination made
pursuant to such law so existing on said day, and
made at least six days prior to said time of
meeting of the electors, shall be conclusive, and
shall govern in the counting of the electoral votes
as provided in the Constitution, and as
hereinafter regulated, so far as the
ascertainment of the electors appointed by such
State is concerned.
4.

4 2 U . S .C. § 1 9 8 3
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act
of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of
the District of Columbia.

2

5.

4 2 U . S .C. § 1 9 8 8 ( A )
(a)Applicability of statutory and common law
The jurisdiction in civil and criminal matters
conferred on the district courts by the provisions
of titles 13, 24, and 70 of the Revised Statutes for
the protection of all persons in the United States
in their civil rights, and for their vindication,
shall be exercised and enforced in conformity
with the laws of the United States, so far as such
laws are suitable to carry the same into effect;
but in all cases where they are not adapted to the
object, or are deficient in the provisions
necessary to furnish suitable remedies and
punish offenses against law, the common law, as
modified and changed by the constitution and
statutes of the State wherein the court having
jurisdiction of such civil or criminal cause is held,
so far as the same is not inconsistent with the
Constitution and laws of the United States, shall
be extended to and govern the said courts in the
trial and disposition of the cause, and, if it is of a
criminal nature, in the infliction of punishment
on the party found guilty.

6.

O . C . G.A. § 1-3 -1 ( D ) ( 3 )
(3) Computation of time. Except as otherwise
provided by time period computations specifically
applying to other laws, when a period of time
measured in days, weeks, months, years, or other
measurements of time except hours is prescribed
for the exercise of any privilege or the discharge
of any duty, the first day shall not be counted but
the last day shall be counted; and, if the last day
falls on Saturday or Sunday, the party having
such privilege or duty shall have through the
following Monday to exercise the privilege or to
3

discharge the duty. When the last day prescribed
for such action falls on a public and legal holiday
as set forth in Code Section 1-4-1, the party
having the privilege or duty shall have through
the next business day to exercise the privilege or
to discharge the duty. When the period of time
prescribed is less than seven days, intermediate
Saturdays, Sundays, and legal holidays shall be
excluded in the computation.
7.

O . C . G.A. § 2 1 -2 -1 0 E L E C T I O N
PRESIDENTIAL ELECTORS

OF

At the November election to be held in the year
1964 and every fourth year thereafter, there
shall be elected by the electors of this state
persons to be known as electors of President and
Vice President of the United States and referred
to in this chapter as presidential electors,
equal in number to the whole number of senators
and representatives to which this state may be
entitled in the Congress of the United States.
8.

O . C . G.A. § 2 1 -2 -1 1 M E E T I N G O F
PRESIDENTIAL ELECTORS, DUTIES
The presidential electors chosen pursuant to
Code Section 21-2-10 shall assemble at the seat
of government of this state at 12:00 Noon of the
day which is, or may be, directed by the Congress
of the United States and shall then and there
perform the duties required of them by the
Constitution and laws of the United States.

9.

§ 2 1 -2 -1 2 . F I L L I N G O F V A C A N C I E S E X I S T I N G
IN PRESIDENTIAL ELECTORS
If any such presidential elector shall die, or for
any cause fail to attend at the seat of
4

government at the time appointed by law, the
presidential electors present shall proceed to
choose by voice vote a person of the same
political party or body, if any, as such deceased
or absent presidential elector, to fill the vacancy
occasioned thereby; and immediately after such
choice the name of the person so chosen shall be
transmitted by the presiding officer of the college
to the Governor, who shall immediately cause
notice of his or her election in writing to be given
to such person. The person so elected, and not
the person in whose place he or she shall have
been chosen, shall be a presidential elector and
shall, with the other presidential electors,
perform the duties required of them by the
Constitution and laws of the United States.
10.

§ 2 1 -2 -1 3 . C O M P E N S A T I O N O F P R E S I D E N T I A L
ELECTORS; EXPENSES OF ELECTORAL
COLLEGE

Each presidential elector shall receive from the
state treasury the sum of $50.00 for every day
spent in traveling to, remaining at, and
returning from the place of meeting and shall be
entitled to mileage at the rate of 10¢ per mile to
and from his or her home. The reasonable
expenses of the electoral college shall likewise be
paid by the state treasurer, in both cases upon
warrants drawn by the presiding officer of the
college.
11.

§ 2 1 -2 -1 3 2 ( A ). F I L I N G N O T I C E O F
CANDIDACY, GENERALLY; QUALIFYING
AFFIDAVITS

(a) The names of nominees of political parties
nominated in a primary and the names of
nominees of political parties for the office of
5

FEES;

presidential elector shall be placed on the
election ballot without their filing the notice of
candidacy otherwise required by this Code
section.
12.

§ 2 1 -2 -1 3 2 . 1 . P R E S I D E N T I A L

ELECTORS FOR

INDEPENDENT

(a) An independent candidate for the office of
President or Vice President of the United States
shall file with the Secretary of State not later
than the Friday before the opening of qualifying
for such office as provided in subsection (d) of
Code Section 21-2-132 a slate of candidates for
the office of presidential elector which such
independent candidate has certified as being the
presidential electors for such independent
candidate.
(b) The candidates for presidential electors
certified by an independent candidate for the
office of President or Vice President of the
United States shall then qualify for election to
such office in accordance with Code Section 21-2132.
(c) An independent candidate for the office of
President or Vice President of the United States
may certify a number of candidates for the office
of presidential elector that is equal to or less
than the number of presidential electors who
may be elected from the State of Georgia.
13.

§ 2 1 -2 -2 1 6 . E L E C T O R ’ S

QUALIFICATIONS;
APPLICANTS ACQUIRING AGE
QUALIFICATIONS WITHIN SIX MONTHS
PERMITTED TO REGISTER; ELECTORS NOT

6

REQUIRED TO REREGISTER; ELECTORS
MOVING TO ANOTHER STATE

(e) If any citizen of this state begins residence in
another state after the thirtieth day next
preceding any election for President and Vice
President and, for that reason, does not satisfy
the registration requirements of that state, such
citizen shall be allowed to vote for presidential
and vice presidential electors, in that election, in
person in this state if such citizen satisfied, as of
the date of such citizen’s change of residence, the
requirements to vote in this state, or by absentee
ballot in this state if such citizen satisfies, but
for such citizen’s nonresident status and the
reason for such citizen’s absence, the
requirements for absentee voting in this state.
14.

§ 2 1 -2 -2 8 5 ( E ). F O R M

OF OFFICIAL ELECTION

BALLOT

(e) When presidential electors are to be elected,
the ballot shall not list the individual names of
the candidates for presidential electors but shall
list the names of each political party or body and
the names of the candidates of the party or body
for the offices of President and Vice President of
the United States. The individual names or the
nominees of each political party or body for such
offices shall be posted at each polling place
arranged alphabetically under the names of the
candidates of the party or body for President and
Vice President of the United States. A vote for
the candidates for President and Vice President
of a political party or body shall be deemed to be
a vote for each of the candidates for presidential
electors of such political party or body.

7

15.

§ 2 1 -2 -3 2 2 ( 2 ) . G E N E R A L

REQUIREMENTS AS

TO VOTING MACHINES

(2) It shall permit each elector, in one operation,
to vote for all the candidates of one party or body
for presidential electors;
16.

§ 2 1 -2 -3 6 5 ( 2 ) . G E N E R A L

REQUIREMENTS AS
TO OPTICAL SCANNING VOTING SYSTEMS

(2) It shall permit each elector, in one operation
per ballot, to vote for all the candidates of one
party or body for presidential electors;
17.

§ 2 1 -2 -3 7 9 . 5 ( E ). I N F O R M A T I O N

TO APPEAR

ON BALLOTS

(e) When presidential electors are to be elected,
the ballot shall not list the individual names of
the candidates for presidential electors but shall
list the names of each political party and body
and the names of the political party or body
candidates for the office of President and Vice
President. The individual names or the nominees
of each political party or body for such offices
shall be posted at each polling place with the
sample ballots required by subsection (d) of Code
Section 21-2-379.7 arranged alphabetically under
the names of the candidates of the party or body
for President and Vice President of the United
States. A vote for the candidates for President
and Vice President of a political party or body
shall be deemed to be a vote for each of the
candidates for presidential electors of such
political party or body.

8

18.

§ 2 1 -2 -3 8 1 . A P P L I C A T I O N

FOR BALLOT

(d)(1) A citizen of the United States permanently
residing outside the United States is entitled to
make application for an absentee ballot from
Georgia and to vote by absentee ballot in any
election for presidential electors and United
States senator or representative in Congress:
19.

O . C . G.A. § 2 1 -2 -3 8 6 . S A F E K E E P I N G ,
CERTIFICATION, AND VALIDATION OF
ABSENTEE BALLOTS; REJECTION OF BALLOT;
DELIVERY OF BALLOTS TO MANAGER; DUTIES
OF MANAGERS; PRECINCT RETURNS;
NOTIFICATION OF CHALLENGED ELECTOR

(a) (1) (A) The board of registrars or absentee
ballot clerk shall keep safely, unopened, and
stored in a manner that will prevent tampering
and unauthorized access all official absentee
ballots received from absentee electors prior to
the closing of the polls on the day of the primary
or election except as otherwise provided in this
subsection.
(B) Upon receipt of each ballot, a
registrar or clerk shall write the day
and hour of the receipt of the ballot
on its envelope. The registrar or
clerk shall then compare the
identifying information on the oath
with the information on file in his or
her office, shall compare the
signature or mark on the oath with
the signature or mark on the
absentee elector's voter registration
card or the most recent update to
such absentee elector's voter
registration card and application for
9

absentee ballot or a facsimile of said
signature or mark taken from said
card or application, and shall, if the
information and signature appear to
be valid and other identifying
information appears to be correct,
so certify by signing or initialing his
or her name below the voter's oath.
Each elector's name so certified
shall be listed by the registrar or
clerk on the numbered list of
absentee voters prepared for his or
her precinct.
(C) If the elector has failed to sign
the oath, or if the signature does not
appear to be valid, or if the elector
has failed to furnish required
information or information so
furnished does not conform with
that on file in the registrar's or
clerk's office, or if the elector is
otherwise found disqualified to vote,
the registrar or clerk shall write
across the face of the envelope
"Rejected," giving the reason
therefor. The board of registrars or
absentee ballot clerk shall promptly
notify the elector of such rejection, a
copy of which notification shall be
retained in the files of the board of
registrars or absentee ballot clerk
for at least two years. Such elector
shall have until the end of the
period for verifying provisional
ballots contained in subsection (c) of
Code Section 21-2-419 to cure the
problem resulting in the rejection of
10

the ballot. The elector may cure a
failure to sign the oath, an invalid
signature, or missing information
by submitting an affidavit to the
board of registrars or absentee
ballot clerk along with a copy of one
of the forms of identification
enumerated in subsection (c) of
Code Section 21-2-417 before the
close of such period. The affidavit
shall affirm that the ballot was
submitted by the elector, is the
elector's ballot, and that the elector
is registered and qualified to vote in
the primary, election, or runoff in
question. If the board of registrars
or absentee ballot clerk finds the
affidavit and identification to be
sufficient, the absentee ballot shall
be counted.
(D) An elector who registered to
vote by mail, but did not comply
with subsection (c) of Code Section
21-2-220, and who votes for the first
time in this state by absentee ballot
shall include with his or her
application for an absentee ballot or
in the outer oath envelope of his or
her absentee ballot either one of the
forms of identification listed in
subsection (a) of Code Section 21-2417 or a copy of a current utility
bill, bank statement, government
check, paycheck, or other
government document that shows
the name and address of such
elector. If such elector does not
11

provide any of the forms of
identification listed in this
subparagraph with his or her
application for an absentee ballot or
with the absentee ballot, such
absentee ballot shall be deemed to
be a provisional ballot and such
ballot shall only be counted if the
registrars are able to verify current
and valid identification of the
elector as provided in this
subparagraph within the time
period for verifying provisional
ballots pursuant to Code Section 212-419. The board of registrars or
absentee ballot clerk shall promptly
notify the elector that such ballot is
deemed a provisional ballot and
shall provide information on the
types of identification needed and
how and when such identification is
to be submitted to the board of
registrars or absentee ballot clerk to
verify the ballot.
(E) Three copies of the numbered
list of voters shall also be prepared
for such rejected absentee electors,
giving the name of the elector and
the reason for the rejection in each
case. Three copies of the numbered
list of certified absentee voters and
three copies of the numbered list of
rejected absentee voters for each
precinct shall be turned over to the
poll manager in charge of counting
the absentee ballots and shall be

12

distributed as required by law for
numbered lists of voters.
(F) All absentee ballots returned to
the board or absentee ballot clerk
after the closing of the polls on the
day of the primary or election shall
be safely kept unopened by the
board or absentee ballot clerk and
then transferred to the appropriate
clerk for storage for the period of
time required for the preservation
of ballots used at the primary or
election and shall then, without
being opened, be destroyed in like
manner as the used ballots of the
primary or election. The board of
registrars or absentee ballot clerk
shall promptly notify the elector by
first-class mail that the elector's
ballot was returned too late to be
counted and that the elector will not
receive credit for voting in the
primary or election. All such late
absentee ballots shall be delivered
to the appropriate clerk and stored
as provided in Code Section 21-2390.
(G) Notwithstanding any provision
of this chapter to the contrary, until
the United States Department of
Defense notifies the Secretary of
State that the Department of
Defense has implemented a system
of expedited absentee voting for
those electors covered by this
subparagraph, absentee ballots cast
in a primary, election, or runoff by
13

eligible absentee electors who reside
outside the county or municipality
in which the primary, election, or
runoff is held and are members of
the armed forces of the United
States, members of the merchant
marine of the United States,
spouses or dependents of members
of the armed forces or merchant
marine residing with or
accompanying such members, or
overseas citizens that are
postmarked by the date of such
primary, election, or runoff and are
received within the three-day period
following such primary, election, or
runoff, if proper in all other
respects, shall be valid ballots and
shall be counted and included in the
certified election results.
(2) After the opening of the polls on the
day of the primary, election, or runoff, the
registrars or absentee ballot clerks shall
be authorized to open the outer envelope
on which is printed the oath of the elector
in such a manner as not to destroy the
oath printed thereon; provided, however,
that the registrars or absentee ballot clerk
shall not be authorized to remove the
contents of such outer envelope or to open
the inner envelope marked "Official
Absentee Ballot," except as otherwise
provided in this Code section. At least
three persons who are registrars, deputy
registrars, poll workers, or absentee ballot
clerks must be present before
commencing; and three persons who are
14

registrars, deputy registrars, or absentee
ballot clerks shall be present at all times
while the outer envelopes are being
opened. After opening the outer envelopes,
the ballots shall be safely and securely
stored until the time for tabulating such
ballots.
(3) A county election superintendent may,
in his or her discretion, after 7:00 A.M. on
the day of the primary, election, or runoff
open the inner envelopes in accordance
with the procedures prescribed in this
subsection and begin tabulating the
absentee ballots. If the county election
superintendent chooses to open the inner
envelopes and begin tabulating such
ballots prior to the close of the polls on the
day of the primary, election, or runoff, the
superintendent shall notify in writing, at
least seven days prior to the primary,
election, or runoff, the Secretary of State
of the superintendent's intent to begin the
absentee ballot tabulation prior to the
close of the polls. The county executive
committee or, if there is no organized
county executive committee, the state
executive committee of each political party
and political body having candidates
whose names appear on the ballot for such
election in such county shall have the
right to designate two persons and each
independent and nonpartisan candidate
whose name appears on the ballot for such
election in such county shall have the
right to designate one person to act as
monitors for such process. In the event
that the only issue to be voted upon in an
15

election is a referendum question, the
superintendent shall also notify in writing
the chief judge of the superior court of the
county who shall appoint two electors of
the county to monitor such process.
(4) The county election superintendent
shall publish a written notice in the
superintendent's office of the
superintendent's intent to begin the
absentee ballot tabulation prior to the
close of the polls and publish such notice
at least one week prior to the primary,
election, or runoff in the legal organ of the
county.
(5) The process for opening the inner
envelopes of and tabulating absentee
ballots on the day of a primary, election, or
runoff as provided in this subsection shall
be a confidential process to maintain the
secrecy of all ballots and to protect the
disclosure of any balloting information
before 7:00 P.M. on election day. No
absentee ballots shall be tabulated before
7:00 A.M. on the day of a primary,
election, or runoff.
(6) All persons conducting the tabulation
of absentee ballots during the day of a
primary, election, or runoff, including the
vote review panel required by Code
Section 21-2-483, and all monitors and
observers shall be sequestered until the
time for the closing of the polls. All such
persons shall have no contact with the
news media; shall have no contact with
other persons not involved in monitoring,
observing, or conducting the tabulation;
16

shall not use any type of communication
device including radios, telephones, and
cellular telephones; shall not utilize
computers for the purpose of e-mail,
instant messaging, or other forms of
communication; and shall not
communicate any information concerning
the tabulation until the time for the
closing of the polls; provided, however,
that supervisory and technical assistance
personnel shall be permitted to enter and
leave the area in which the tabulation is
being conducted but shall not
communicate any information concerning
the tabulation to anyone other than the
county election superintendent; the staff of
the superintendent; those persons
conducting, observing, or monitoring the
tabulation; and those persons whose
technical assistance is needed for the
tabulation process to operate.
(7) The absentee ballots shall be tabulated
in accordance with the procedures of this
chapter for the tabulation of absentee
ballots. As such ballots are tabulated, they
shall be placed into locked ballot boxes
and may be transferred to locked ballot
bags, if needed, for security. The persons
conducting the tabulation of the absentee
ballots shall not cause the tabulating
equipment to produce any count, partial or
otherwise, of the absentee votes cast until
the time for the closing of the polls.
(b) As soon as practicable after 7:00 A.M. on the
day of the primary, election, or runoff, in
precincts other than those in which optical
scanning tabulators are used, a registrar or
17

absentee ballot clerk shall deliver the official
absentee ballot of each certified absentee elector,
each rejected absentee ballot, applications for
such ballots, and copies of the numbered lists of
certified and rejected absentee electors to the
manager in charge of the absentee ballot precinct
of the county or municipality, which shall be
located in the precincts containing the county
courthouse or polling place designated by the
municipal superintendent. In those precincts in
which optical scanning tabulators are used, such
absentee ballots shall be taken to the tabulation
center or other place designated by the
superintendent, and the official receiving such
absentee ballots shall issue his or her receipt
therefor. Except as otherwise provided in this
Code section, in no event shall the counting of
the ballots begin before the polls close.
(c) Except as otherwise provided in this Code
section, after the close of the polls on the day of
the primary, election, or runoff, a manager shall
then open the outer envelope in such manner as
not to destroy the oath printed thereon and shall
deposit the inner envelope marked "Official
Absentee Ballot" in a ballot box reserved for
absentee ballots. In the event that an outer
envelope is found to contain an absentee ballot
that is not in an inner envelope, the ballot shall
be sealed in an inner envelope, initialed and
dated by the person sealing the inner envelope,
and deposited in the ballot box and counted in
the same manner as other absentee ballots,
provided that such ballot is otherwise proper.
Such manager with two assistant managers,
appointed by the superintendent, with such
clerks as the manager deems necessary shall
count the absentee ballots following the
18

procedures prescribed by this chapter for other
ballots, insofar as practicable, and prepare an
election return for the county or municipality
showing the results of the absentee ballots cast
in such county or municipality.
(d) All absentee ballots shall be counted and
tabulated in such a manner that returns may be
reported by precinct; and separate returns shall
be made for each precinct in which absentee
ballots were cast showing the results by each
precinct in which the electors reside.
(e) If an absentee elector's right to vote has been
challenged for cause, a poll officer shall write
"Challenged," the elector's name, and the alleged
cause of challenge on the outer envelope and
shall deposit the ballot in a secure, sealed ballot
box; and it shall be counted as other challenged
ballots are counted. Where direct recording
electronic voting systems are used for absentee
balloting and a challenge to an elector's right to
vote is made prior to the time that the elector
votes, the elector shall vote on a paper or optical
scanning ballot and such ballot shall be handled
as provided in this subsection. The board of
registrars or absentee ballot clerk shall promptly
notify the elector of such challenge.
(f) It shall be unlawful at any time prior to the
close of the polls for any person to disclose or for
any person to receive any information regarding
the results of the tabulation of absentee ballots
except as expressly provided by law.

19

20.

§ 2 1 -2 -4 3 5 ( C ) 4 ) . M E T H O D

OF MARKING
BALLOTS AND DEPOSITING SAME IN
PRECINCTS IN WHICH BALLOTS ARE USED

(c) At elections, the elector shall prepare his or
her ballot in the following manner: …
(4) If he or she desires to vote for the
presidential electors nominated by any
party or body, he or she may make a cross
(X) or check (✓) mark in the appropriate
square at the left of the names of the
candidates for President and Vice
President of such party or body;
21.

§ 2 1 -2 -4 3 8 ( B ). W H A T B A L L O T S S H A L L
COUNTED; MANNER OF COUNTING;

BE

DEFECTIVE BALLOTS

(b) At elections, any ballot marked by any other
mark than a cross (X) or check (✓) mark in the
spaces provided for that purpose shall be void
and not counted; provided, however, that no vote
recorded thereon shall be declared void because a
cross (X) or check (✓) mark thereon is irregular
in form. A cross (X) or check (✓) mark in the
square opposite the names of the nominees of a
political party or body for the offices of President
and Vice President shall be counted as a vote for
every candidate of that party or body for the
offices of presidential electors. Any ballot
indicating a write-in for any person whose name
is not printed on the ballot and who properly
gave notice of intent to run as a write-in
candidate pursuant to Code Section 21-2-133
shall be counted as a vote for such person, if
written in the proper space or spaces provided
for that purpose, whether or not a cross (X) or
20

check (✓) mark is placed before the name of such
person.
22.

O . C . G.A. § 2 1 -2 -4 5 2 ( E ). A D M I S S I O N O F
ELECTORS TO ENCLOSED SPACE; VOTING
PROCEDURE GENERALLY; PROCEDURE AS
WRITE-IN VOTES; VOTING BY ELECTORS
WHOSERIGHT TO VOTE IS CHALLENGED;

TO

DISABLED VOTERS

(e) At any general election at which presidential
electors are to be chosen, each elector shall be
permitted to vote by one operation for all the
presidential electors of a political party or body.
For each party or body nominating presidential
electors, a ballot label shall be provided
containing only the words "Presidential
Electors," preceded by the name of the party or
body and followed by the names of the
candidates thereof for the office of President and
Vice President, and the corresponding counter or
registering device shall register votes cast for
such presidential electors when thus voted for
collectively. If an elector desires to vote a ticket
for presidential electors made up of the names of
persons nominated by different parties or bodies,
or partially of names of persons so in nomination
and partially of names of persons not in
nomination by any party or body, or wholly of
names of persons not in nomination by any party
or body, he or she may write or deposit a paper
ballot prepared by himself or herself in the
receptacle provided in or on the machine for the
purpose. The machine shall be so constructed
that it will not be possible for any one elector to
vote a straight party or body ticket for
presidential electors and at the same time to
deposit a ballot for presidential electors in such
21

receptacle. When the votes for presidential
electors are counted, the votes appearing upon
the counter or registering device corresponding
to the ballot label containing the names of the
candidates for President and Vice President of
any party or body shall be counted as votes for
each of the candidates for presidential elector of
such party or body; and thereupon all candidates
for presidential elector shall be credited, in
addition, with the votes cast for them upon the
ballots deposited in the machine, as provided in
this Code section.
23.

§ 2 1 -2 -4 5 5 ( B ). C A N V A S S

AND RETURN OF

VOTES

(b) The vote as registered shall be entered by the
poll officers, in ink, on duplicate return sheets
and also on a general return sheet and
statement, all of which, after the canvass is
completed, shall be signed by the poll officers. If
any poll officer shall refuse to sign or certify the
general or duplicate return sheets or statement,
he or she shall write his or her reasons therefor
upon such sheets. The vote for presidential
electors shall be computed and returned as
provided in subsection (e) of Code Section 21-2452. If more than one voting machine is used in
any precinct, the vote registered on each
machine shall be ascertained in like manner and
separately entered in appropriate spaces on the
general and duplicate return sheets and
statement. The total vote cast for each candidate
and for and against each question shall then be
computed and entered on the general and
duplicate return sheets and statement. There
shall also be entered on the general return sheet
and statement the number of electors who have
voted, as shown by the numbered list of voters,
22

electors list, and voter’s certificates, and the
number on each machine, as shown by the public
counters. The number registered on the
protective counter or device on each machine
immediately prior to the opening of the polls and
immediately after the closing thereof and sealing
of the machine and the number or other
designation of each machine used shall also be
entered thereon. In the case of primaries,
duplicate return sheets shall be prepared as for
other elections. The registering counters of the
voting machine or the paper proof sheets, as the
case may be, shall remain exposed to view until
the said returns and all other reports have been
fully completed and checked by the poll officers.
During such time, anyone who may desire to be
present shall be admitted to the polling place.
24.

§ 2 1 -2 -4 8 0 ( G ). F O R M

AND ARRANGEMENT OF

BALLOTS

(g) When presidential electors are to be elected,
the ballot shall not list the individual names of
the candidates for presidential electors but shall
list the names of each political party and body
and the names of the political party or body
candidates for the office of President and Vice
President. The individual names or the nominees
of each political party or body for such offices
shall be posted at each polling place with the
sample ballots required by subsection (c) of Code
Section 21-2-375 arranged alphabetically under
the names of the candidates of the party or body
for President and Vice President of the United
States. A vote for the candidates for President
and Vice President of a political party or body
shall be deemed to be a vote for each of the
candidates for presidential electors of such
political party or body.
23

25.

§ 2 1 -2 -4 8 3 ( B ). C O U N T I N G

OF BALLOTS;
PUBLIC ACCESSIBILITY TO TABULATING
CENTER AND PRECINCTS; EXECUTION OF

BALLOT RECAP FORMS; PREPARATION OF
DUPLICATE BALLOTS

(b) All proceedings at the tabulating center and
precincts shall be open to the view of the public,
but no person except one employed and
designated for the purpose by the superintendent
or the superintendent's authorized deputy shall
touch any ballot or ballot container.
26.

§ 2 1 -2 -4 9 8 . C O N S T I T U T I O N A L O F F I C E R S
ELECTION BOARD
(a) As used in this Code section, the term:
(1) "Incorrect outcome" is when the winner
of a contest or the answer to a proposed
constitutional amendment or question
would be different from the results found
in a manual recount of paper official
ballots.
(2) "Risk limit" means the largest
statistical probability that an incorrect
outcome is not detected or corrected in a
risk-limiting audit.
(3) "Risk-limiting audit" means an audit
protocol that makes use of statistical
methods and is designed to limit to
acceptable levels the risk of certifying a
preliminary election outcome that
constitutes an incorrect outcome.
(b) As soon as possible, but no later than the
November, 2020, general election, the local
24

election superintendents shall conduct
precertification tabulation audits for any federal
or state general election in accordance with
requirements set forth by rule or regulation of
the State Election Board. Audits performed
under this Code section shall be conducted by
manual inspection of random samples of the
paper official ballots.
(c) In conducting each audit, the local election
superintendents shall:
(1) Complete the audit prior to final
certification of the contest;
(2) Ensure that all types of ballots are
included in the audit, whether cast in
person, by absentee ballot, advance voting,
provisional ballot, or otherwise;
(3) Provide a report of the unofficial final
tabulated vote results for the contest to
the public prior to conducting the audit;
(4) Complete the audit in public view; and
(5) Provide details of the audit to the public
within 48 hours of completion.
(d) The State Election Board shall be authorized
to promulgate rules, regulations, and procedures
to implement and administer the provisions of
this Code section. The procedures prescribed by
the State Election Board shall include security
procedures to ensure that collection of validly
cast ballots is complete, accurate, and
trustworthy throughout the audit.
(e) The Secretary of State shall conduct a risklimiting audit pilot program with a risk limit of
25

not greater than 10 percent in one or more
counties by December 31, 2021. The Secretary of
State shall review the results of the pilot
program and, within 90 days following the
election in which such pilot program is used,
shall provide the members of the General
Assembly with a comprehensive report, including
a plan on how to implement risk-limiting audits
state wide. If such risk-limiting audit is
successful in achieving the specified confidence
level within five business days following the
election for which it was conducted, then all
audits performed pursuant to this Code section
shall be similarly conducted, beginning not later
than November 1, 2024.
27.

O . C . G.A. § 2 1 -2 -4 9 9 ( B ) D U T Y O F
SECRETARY OF STATE AS TO TABULATION,
COMPUTATION, AND CANVASSING OF VOTES
FOR STATE AND FEDERAL OFFICERS;
CERTIFICATION OF PRESIDENTIAL ELECTORS
BY

GOVERNOR

(b) The Secretary of State shall also, upon
receiving the certified returns for presidential
electors, proceed to tabulate, compute, and
canvass the votes cast for each slate of
presidential electors and shall immediately lay
them before the Governor. Not later than 5:00
P.M. on the seventeenth day following the date
on which such election was conducted, the
Secretary of State shall certify the votes cast for
all candidates described in subparagraph
(a)(4)(A) of Code Section 21-2-497 and upon all
questions voted for by the electors of more than
one county and shall no later than that same
time lay the returns for presidential electors
before the Governor. The Governor shall
enumerate and ascertain the number of votes for
26

each person so voted and shall certify the slates
of presidential electors receiving the highest
number of votes. The Governor shall certify the
slates of presidential electors no later than 5:00
P.M. on the eighteenth day following the date on
which such election was conducted.
Notwithstanding the deadlines specified in this
Code section, such times may be altered for just
cause by an order of a judge of superior court of
this state.
28.

§ 2 1 -2 -5 0 1 ( F ). V O T E

REQUIREMENTS FOR
NOMINATION OR ELECTION; RUN-OFF
ELECTIONS

(f) Except for presidential electors, to be
elected to public office in a general election, a
candidate must receive a majority of the votes
cast in an election to fill such public office. To be
elected to the office of presidential electors, no
slate of candidates shall be required to receive a
majority of the votes cast, but that slate of
candidates shall be elected to such office which
receives the highest number of votes cast.
29.

§ 2 1 -2 -5 0 2 ( E ). C E R T I F I C A T E S O F
COMMISSIONS; PROCLAMATIONS

ELECTION;

(e) Presidential electors. The Secretary of State,
on receiving and computing the returns of
presidential electors, shall lay them before the
Governor, who shall enumerate and ascertain
the number of votes for each person so voted for
and shall cause a certificate of election to be
delivered to each person so chosen.
30.

O . C . G.A. § 2 1 -2 -5 2 4 ( A ). F I L I N G A N D
ALLEGATIONS OF PETITION TO CONTEST
PRIMARY OR ELECTION; SERVICE OF

27

PETITION; VERIFICATION; NOTICE OF
PROCEEDINGS TO ANSWER PETITION;

SERVICE OF SPECIAL PROCESS; AMENDMENT

(a) A petition to contest the result of a primary or
election shall be filed in the office of the clerk of
the superior court having jurisdiction within five
days after the official consolidation of the returns
of that particular office or question and
certification thereof by the election official
having responsibility for taking such action
under this chapter or within five days after the
official consolidation and certification of the
returns of that particular office or question by
the election official having responsibility for
taking such action under this chapter following a
recount pursuant to Code Section 21-2-495 and
shall allege:
(1) The contestant's qualification to
institute the contest;
(2) The contestant's desire to contest the
result of such primary or election and the
name of the nomination, office, or question
involved in the contest;
(3) The name of the defendant;
(4) The name of each person who was a
candidate at such primary or election for
such nomination or office in the case of a
contest involving same;
(5) Each ground of contest;
(6) The date of the official declaration of
the result in dispute;
(7) The relief sought; and
28

(8) Such other facts as are necessary to
provide a full, particular, and explicit
statement of the cause of contest.
31.

O . C . G.A. § 2 1 -2 -5 2 7 ( D P R O N O U N C E M E N T O F
JUDGMENT; EFFECT OF FINDING OF
MISCONDUCT BY POLL OFFICERS; CALLING
OF SECOND PRIMARY, ELECTION, OR RUNOFF
BY COURT UPON FINDING OF DEFECTS

(d) Whenever the court trying a contest shall
determine that the primary, election, or runoff is
so defective as to the nomination, office, or
eligibility in contest as to place in doubt the
result of the entire primary, election, or runoff
for such nomination, office, or eligibility, such
court shall declare the primary, election, or
runoff to be invalid with regard to such
nomination, office, or eligibility and shall call for
a second primary, election, or runoff to be
conducted among all of the same candidates who
participated in the primary, election, or runoff to
fill such nomination or office which was declared
invalid and shall set the date for such second
primary, election, or runoff.
32.

O . C . G.A. § 2 1 -2 -2( 2 5 ) ( B ). D E F I N I T I O N S
(25) "Political party" or "party" means any
political organization which at the preceding:
(B) Presidential election nominated a
candidate for President of the United
States and whose candidates for
presidential electors at such election
polled at least 20 percent of the total vote
cast in the nation for that office.

29

33.

O . C . G.A. § 2 1 -2 -5 2 1 . P R I M A R I E S

AND
ELECTIONS WHICH ARE SUBJECT TO
CONTEST; PERSONS WHO MAY BRING
CONTEST

The nomination of any person who is declared
nominated at a primary as a candidate for any
federal, state, county, or municipal office; the
election of any person who is declared elected to
any such office (except when otherwise
prescribed by the federal Constitution or the
Constitution of Georgia); the eligibility of any
person declared eligible to seek any such
nomination or office in a run-off primary or
election; or the approval or disapproval of any
question submitted to electors at an election may
be contested by any person who was a candidate
at such primary or election for such nomination
or office, or by any aggrieved elector who was
entitled to vote for such person or for or against
such question.
34.

§ 2 1 -2 -5 2 2 . G R O U N D S

FOR CONTEST

A result of a primary or election may be
contested on one or more of the following
grounds:
(1) Misconduct, fraud, or irregularity by
any primary or election official or officials
sufficient to change or place in doubt the
result;
(2) When the defendant is ineligible for the
nomination or office in dispute;
(3) When illegal votes have been received
or legal votes rejected at the polls
30

sufficient to change or place in doubt the
result;
(4) For any error in counting the votes or
declaring the result of the primary or
election, if such error would change the
result; or
(5) For any other cause which shows that
another was the person legally nominated,
elected, or eligible to compete in a run-off
primary or election.
35.

G A . S E C . S T A T E R U L E 1 8 3 - 1 -1 4 -0 . 9 * . 1 5
183-1-14-0.9-.15 Processing Absentee Ballots
Prior to Election Day
RULE 183-1-14-0.9-.15 Processing Absentee
Ballots Prior to Election Day
(1) Beginning at 8:00 a.m. on the third Monday
prior to Election Day, county election
superintendents shall be authorized to open the
outer envelope of accepted absentee ballots,
remove the contents including the absentee
ballot, and scan the absentee ballot using one or
more ballot scanners, in accordance with this
rule, and may continue until all accepted
absentee ballots are processed. All county
election superintendents shall begin processing
and scanning absentee ballots the second
Monday before Election Day. However, no person
shall tally, tabulate, estimate or attempt to tally,
tabulate or estimate or cause the voting
equipment to produce any tally or tabulation,
partial or otherwise, of the absentee votes cast
until the time for the closing of the polls on
Election Day.
31

(2) Absentee ballots shall be processed in batches
of not more than 100. At least three persons who
are registrars, deputy registrars, poll workers, or
absentee ballot clerks must be present at all
times during the processing of a batch of
absentee ballots.
(3) Outer envelopes shall be opened in such a
manner as not to destroy the oath and signature
of the voter.
(4) All outer envelopes in a batch shall be
counted and recorded on a reconciliation form
prior to opening the outer envelopes of a batch.
Upon opening the outer envelopes of a batch, the
contents shall be removed in a manner that
ensures that the contents of the envelope cannot
be matched back to the outer envelope. Once all
of the outer envelopes of a batch have been
opened and the contents removed, the inner
envelopes and/or secrecy sleeves shall be opened
and the absentee ballots removed. Once all of the
absentee ballots have been removed, the number
of ballots shall be counted and recorded on a
reconciliation form and compared to the original
count of outer envelopes in the batch. Any
discrepancy shall be investigated and recorded
on a reconciliation form. The form shall be signed
by the officials processing the batch of ballots.
The absentee ballots shall then be scanned on a
ballot scanner. A batch number assigned by the
ballot scanner shall be recorded on the
reconciliation form for that batch. Any ballot
that is so torn, bent, or otherwise defective that
it cannot be processed by the scanner shall be
duplicated pursuant to O.C.G.A. § 21-2-483. Vote
review panels shall be established, as needed, to
adjudicate any rejected ballots per O.C.G.A. § 212-483 and Rule
32

Page 2 of 3
183-1-15-.02. Once successfully scanned, the
batch of ballots shall be bound together with the
reconciliation form (or a copy thereof) and the
official who scanned the ballots shall notate on
the reconciliation form that the batch has been
scanned, including the date and location of the
scanning, and initial the notation. The scanned
absentee ballots shall then be secured in a
container. More than one batch of scanned
absentee ballots may be placed in the container,
but the individual batches must be separately
bound. A security seal shall be placed on the
container. The batch number(s), the number of
scanned absentee ballots in each batch, and the
security seal number shall be recorded on the
container.
(5) If the county election superintendent chooses
to prepare and/or scan absentee ballots prior to
Election Day according to this Rule, the
superintendent shall notify the Secretary of
State in writing at least seven days prior to
processing absentee ballots.
(6) The proceedings described in this rule shall
be open to the view of the public, but no person
except one employed and designated for the
purpose by the superintendent shall touch any
ballot or ballot container. The state executive
committee of each political party and political
body having candidates whose names appear on
the ballot in such county shall have the right to
have two properly designated persons present to
act as monitors for such process and each
independent and nonpartisan candidate whose
name appears on the ballot in such county shall
have the right to have one properly designated
33

person present to act as a monitor for such
process. The designated monitors shall be given
a letter by the designating entity containing the
name of the monitor, his or her address, and the
county in which he or she may monitor the
process. A copy of the letter designating the
monitor shall be delivered to the county elections
superintendent prior to the monitor being
allowed to monitor the process. Each monitor
shall wear a name tag indicating their name and
the entity that designated them while
monitoring the process. Any other observer shall
be required to wear a name tag that indicates
their name and that they are a public observer.
The superintendent may make reasonable
regulations, including regulations regarding
social distancing measures and required
personal protective equipment, that designated
monitors and observers shall follow so that they
do not interfere in any way with the processing
of ballots or conduct of the election. If a monitor
or observer interferes with the processing of the
ballots or conduct of the election after being duly
warned by an election official or superintendent,
or if he or she violates any of the prohibited
activities in this rule, the superintendent may
revoke the person’s designation to monitor the
process, remove them from any further
monitoring or observing, and refer the incident to
the Secretary of State’s office for investigation.
Any infraction or irregularity observed by a
monitor or observer shall be reported to the
superintendent or to the Secretary of State. No
person whose name is on the ballot shall be
eligible to serve as a designated monitor.
(7) While viewing the process set forth in this
rule, monitors and observers are prohibited from:
34

(a) In any way interfering with the processing of
absentee ballots or conduct of the election;
(b) Using or bringing in to the room any
photographic or other electronic monitoring
orrecording devices, cellular telephones, or
computers;
(c) Engaging in any form of campaigning or
campaign activity;
(d) Taking any action that endangers the secrecy
and security of the ballots;
Page 3 of 3
(e) Touching any ballot or ballot container;
(f) Tallying, tabulating, estimating, or
attempting to tally, tabulate, or estimate,
whether partial or otherwise, any of the votes on
the absentee ballots cast; and
(g) Communicating any information that they
see, whether intentionally or inadvertently,
about any ballot, vote, or selection to anyone
other than to an election official who needs to
such information to lawfully carry out his or her
official duties.
(8) Before being allowed to view the process set
forth in this rule, each designated monitor and
observer shall execute an oath swearing or
affirming, under penalty of perjury, that they
understand the prohibitions set forth above, that
they will not engage in any prohibited activity,
and that they understand any violations of this
rule will be punishable by the State Election
Board.
35

(9) The county election superintendent shall
publish a written notice, containing the dates,
start and end times, and location(s) where
absentee ballots will be processed and any
rejected ballots will be adjudicated. Such notice
shall be posted in the superintendent’s office, on
the home page of the county election website,
and sent to the Secretary of State’s office at least
seven days prior to scanning ballots in
accordance with this rule. The Secretary of State
shall publish on his website the information he
receives from counties stating the dates, times
and locations where absentee ballots will be
processed and adjudicated.
(10) Any person involved in processing absentee
ballots according to this rule shall swear an oath,
in the same form as the oath for poll officers set
forth in O.C.G.A. § 21-2-95, prior to beginning
the processing of absentee ballots.
(11) All cell phones, laptops, audio or video
recording devices, and other communication
devices shall be prohibited from the room where
processing of absentee ballots is taking place,
except for county election computers necessary to
carry out this rule or otherwise conduct the
election. No information concerning the tally of
votes, or any partial tally of votes, shall be
communicated until the time for the closing of
the polls on Election day.
(12) The county superintendent shall be
permitted to designate locations where public
observers may view the process described in this
rule to protect the security and secrecy of the
ballots. Monitors designated by political parties,
political bodies, and independent and nonpartisan candidates shall be allowed to monitor
36

the process described in this rule, but they must
do so in a way that does not interfere with
election officials. The superintendent may
designate locations that allow designated
monitors to monitor the process set forth in this
rule, and such locations shall include areas that
allow credentialed monitors to view the batching
of the ballots, reconciliation of envelopes to
ballots, scanning the ballots, duplication of
ballots, adjudication of ballots by vote review
panels, sealing the ballots after scanning, and
other such areas as the superintendent may
deem necessary to the assurance of fair and
honest procedures in the carrying out of the
procedures set forth in this rule.
Authority: O.C.G.A. § 21-2-31.

37

